September 2015

Empower Federal Credit
Union® Credit Card
Agreement and Disclosure
EMPOWER FEDERAL CREDIT UNION® CREDIT CARD
AGREEMENT AND DISCLOSURE SEPTEMBER 2015
Interest Rates and Interest Charges

Variable Annual Percentage Rate
(APR)1
Rates apply to Purchases, Balance
Transfers, and Cash Advances

8.49% to 17.74% Empower Platinum MasterCard®
8.49% to 17.74% Empower World MasterCard®

This APR will vary with the market based on the Prime Rate

Penalty APR and When it Applies

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you interest on purchases if you pay your entire balance by the
due date each month. We will begin charging interest on Cash Advances and
Balance Transfers on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using
a credit card, visit the website of the Consumer Financial Protection
Bureau at: http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee		

None

Transaction Fees
Balance Transfer		
ATM Cash Advance		
Foreign Transaction		

None
None
None

Penalty Fees
Late Payment2		Up to $25.00
Over the Credit Limit		
None
Returned Payment		
None

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new transactions)”.
Billing Rights: Details of your rights and our responsibilities can be found in the Billing Rights section of this account agreement
1) Variable Rate Information: Your APR may vary. Rates are determined and adjusted monthly on the first day of the billing cycle by adding a Margin to the highest Prime Rate published
in the Wall Street Journal on the last business day of each month. The Margin is determined based on an evaluation of each accountholder’s credit history. The Margin will range from
5.24% to 14.49%.
2) Late Payment Information: If you are 10 days late in making a payment, your account will be charged a fee of up to $25.00.
This information is accurate as of September 1, 2015 This information may change at any time. To find out what may have changed, write to us at: Empower Federal Credit Union,
1 Member Way, Syracuse, NY 13212.

DEFINITIONS In this agreement, the word “card”
or “card(s)” refers to all MasterCard® cards issued
to you by Empower Federal Credit Union including
any substitute or renewal card(s) which we have the
authority to reissue at any time. The words “you”,
“your”, and “yours” refer to each credit card applicant
and anyone else the applicant permits to use a card.
The words “we”, “us”, “our” and “Credit Union” refer
to EMPOWER FEDERAL CREDIT UNION.

account number. However, if you do so, you are
liable for all charges made by those persons. You
must notify us in writing to revoke permission for
any person you previously authorized to use your
account. We may choose upon such an occurrence
to issue you a new card or cards with a different
account number. You are responsible according to
the terms of this agreement for the use of each card
issued on your account.

NOTICE TO (YOU) THE MEMBER: Do not use the
card before you read this agreement. Please read
the Agreement carefully and keep a copy for your
records. It is a summary of terms that control the
use of your credit card account. By using your credit
card, you agree to all of the terms of this Agreement.

USE AT AUTOMATED TELLER MACHINES: To
use your card at an Automated Teller Machine(s)
(“ATMs”), you have been given a Personal Identification Number (“PIN”). You agree that you will not give
your card or PIN to anyone who is not authorized
to use your card. You also agree not to write your
PIN on the card itself or carry your PIN with your
card. Use of the card and the PIN are considered
as authorized uses. Transactions performed at ATMs
are considered Cash Advances. Refer to “Finance
Charges on Cash Advances” section of this Agreement for more information.

EFFECT OF AGREEMENT: This agreement is the
contract which applies to all transactions on your
Credit Union MasterCard® account even though the
sales, cash advances, credits or other slips you sign
or receive may contain different terms.
USING YOUR CARD: You do not have to sign this
agreement, but you must sign the card in order to
use it. By signing and using the card, you agree to
the terms and conditions of this agreement.
CREDIT LIMIT: Your current credit limit and available
credit will appear on your monthly billing statement.
You may not use your card if you owe us more than
your credit limit. If you exceed the credit limit, you
must pay this amount immediately. The amount
available may be changed by the Credit Union
without prior notice.
LEGAL RESPONSIBILITY / PROMISE TO PAY: If
we issue you a card, you agree to repay all debts
and the finance charge arising from the use of the
card and the card account. For example, you are
responsible for charges made by yourself, your
spouse and minor children. You are also responsible
for charges made by anyone else to whom you give
this card, and this responsibility continues until the
card is recovered. You cannot disclaim responsibility by notifying us, but we will close the account for
new transactions if you request us to do so and if
you return all cards. Your obligation to pay the account balance continues even though an agreement,
divorce decree or other court judgment to which we
are not a party may direct you to one of the other
persons responsible to pay the account. Any person
using the card is jointly responsible with you for
charges he or she makes, but if that person signs the
card he or she becomes a party to this agreement
and is also jointly responsible for all charges on the
account, including yours.
AUTHORIZED USERS: You may request additional
cards on your account for yourself or others and you
may permit another person to have access to your

AUDIO RESPONSE/INTERNET ACCESS: You
agree by use of a PIN that each member appearing
on your membership account number, regardless
of whether his or her name appears on your credit
card application, is an authorized user with the ability to access your credit card account and request a
cash advance through audio response and Internet
Banking. This includes joint member/owners presently on your membership account number and joint
members/owners added in the future. Transactions
by them using the PIN will be considered authorized
transactions for which you and the card user will
be liable.
SECURITY INTEREST:
IMPORTANT LIEN INFORMATION:
Security Interest Specific for Credit Cards. You
acknowledge and pledge, specifically as a condition of your use of the credit card, that you have
voluntarily granted the Credit Union a security
interest in all of your individual and joint share
accounts at the Credit Union. If your credit card
loan becomes delinquent, you authorize us to
apply any or all funds on deposit with us to pay
amounts due under this agreement should you
default. This security interest does not apply to
shares in an Individual Retirement Account (IRA).
FOREIGN TRANSACTIONS: Purchases and cash
advances made in foreign countries and foreign
currencies will be billed to you in US dollars. The
conversion rate to US dollars will be at 1) A rate
selected by MasterCard® from the range of rates
available in wholesale currency markets for the
applicable central processing date, which rate may
vary from the rate MasterCard® itself receives, or
2) The government-mandated rate in effect for the

applicable central processing date, in each instance,
plus or minus any adjustment determined by the
Credit Union.
MINIMUM PAYMENT: Each month you must pay a
minimum payment amount. The minimum payment
is calculated as the sum of the following items (a)
through (c): (a) any scheduled payment from a previous billing cycle which has not been paid (past due);
(b) 2% of the New Balance as shown on your current
billing statement;(c) any amount of the New Balance
which exceeds your credit limit (over limit). NOTE: If
the sum of (a) through (b) above is less than $10.00,
a minimum of $10.00 will be due. However, if the
New Balance shown on your monthly statement is
less than $10.00, the entire New Balance will be
due. If the minimum payment computed, as above,
is not an even dollar amount, the minimum payment
due may be rounded to the next highest dollar. You
may at any time pay more than the minimum amount
due. You may pay the new balance in whole or in
part at any time. We will not charge you a penalty
for paying more than the minimum payment. Paying
ahead and skipping a payment will not reduce your
liability for interest charges in the month that you do
not make a payment
APPLICATION OF PAYMENTS: We may apply
all payments and credits in accordance with our
standard operating procedures and within the requirements of applicable law.
AUTOMATIC PAYMENT OPTION: You may elect
to have your Minimum Payment Due, your total
New Balance, or a Fixed Amount paid by automatic
withdrawal from either your Regular Share Savings
account or your Share Draft Checking account. We
may require such election to be in writing. If the Fixed
Amount Automatic Payment Option is chosen, and it
does not meet the minimum payment due amount, it
is your responsibility to ensure minimum payment in
full, otherwise your loan will be considered in default.
The Credit Union will attempt to make the payment
transfer at the close of business on the date your
payment is due. Automatic payments that fall on a
non-Business Day may be processed on the Business Day preceding the Payment Date. If the funds
are not sufficient to pay your payment, the Credit
Union may keep trying to make transfers of available
funds each day until your entire payment is made;
however, the Credit Union will not waive any rights to
declare your loan in default by attempting to continue
to make transfers. You may request to be removed
from automatic payment transfer at any time by
giving the Credit Union notice of your decision. We
may require your notice to be confirmed in writing.
IRREGULAR PAYMENTS: We may accept late payments, partial payments, or items marked “payment
in full” or the like without losing any of our rights
under this Agreement.

FINANCE CHARGES ON PURCHASES: We will
impose a FINANCE CHARGE on your credit purchases if you do not pay the total New Balance as
shown on your statement by the payment due date.
FINANCE CHARGES ON CASH ADVANCES: We
will impose a FINANCE CHARGE on cash advances
and balance transfers from the date of each cash
advance or balance transfer transaction until the day
we receive payment in full.
PAYING INTEREST: Your due date is at least 25
days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay
your entire balance by the due date each month. We
will begin charging interest on cash advances and
balance transfers on the transaction date.
MONTHLY STATEMENT: If you have a balance on
your account at the end of the billing period, we will
send you a statement. It will show the balance; any
finance charges; fees; the minimum payment due
and the payment due date. It will also show your
current credit line; available credit; an itemized list
of current charges; payments and credits and other
important information. You must notify us of any
change in your address so that we can properly
direct the mailing of your statement.
RETURNS AND ADJUSTMENTS: Merchants and
others who honor the card may give you credit for
returns and adjustments, and they will do so by
sending us a credit slip which we will post to your
account. If your credits and payments exceed what
you owe us, we will hold and apply this credit balance
against future purchases and cash advances, or if it
is $1.00 or more, refund it upon your written request
or automatically after three (3) months.
DOCUMENTARY EVIDENCE CHARGES: If you
request documentary evidence of a transaction on
your account (for example, a copy of a sales draft),
we may pass along to you our cost of researching
this evidence at the current rate as listed in our Fee
Schedule. No such charge will be imposed unless the
documentary evidence agrees with the transaction
as previously reflected on your statement. In addition to the research fee, the fee for a copy of a sales
draft is the current fee as listed in our Fee Schedule.
REPLACEMENTCARDS: The fee for replacement
of card(s) requested outside of normal card reissuance is the current fee as listed in our Fee Schedule.
LOST OR STOLEN CARDS, ACCOUNT NUMBERS: If a card or account number is lost or
stolen, you must inform us immediately by calling
315.477.2200 or 800.462.5000 or by logging on to
your online account at www.empowerfcu.com. You
agree to inform us of the time, place and manner
of loss or theft and of your name and credit card
account number.
COMPUTATION OF FINANCE CHARGES: We
calculate the FINANCE CHARGE on your account
as follows: The “daily periodic rate” times the number of days in the billing cycle times the “average
daily balance” of your account subject to FINANCE
CHARGES (including current transactions subject to
finance charges). The “daily periodic rate” is calculated by dividing the APR by the number of days in
the year. Your APR may vary. Rates are determined
and adjusted monthly on the first day of the billing
cycle by adding a Margin to the highest Prime Rate
published in the Wall Street Journal on the last business day of each month. The Margin is determined
based on an evaluation of each accountholder’s
credit history. The “average daily balance” for the
period is determined by taking the beginning balance
of your account each day, adding any new purchases
or advances and deducting any payments or credits
and unpaid FINANCE CHARGES. This gives us the
“daily balance”. We then add up all the daily balances for the billing period and divide that total by
the number of days in the billing period.
CANCELLATION: You may cancel your account at
any time by notifying us, in writing, and delivering
the card(s) to us. The card(s) at all times remains
our property, and must be surrendered immediately
upon our request. Upon cancellation, you remain
obligated to repay all amounts due under this Agreement. We may reduce your credit limit and cancel
the account altogether. Unless you are in default,
we will give you notice of any such reduction or
cancellation. We may also cancel your account by
not sending you a renewal card upon expiration at
any time based upon our lending guidelines. We
may also reissue a different card, account number,
at any time. Regardless of whether your account
has been cancelled, no card may be used after the
expiration date indicated on the card.
LIABILITY FOR UNAUTHORIZED USE: If you
notice the loss or theft of your credit card or possible
unauthorized use of your card, you should write to us
or call us immediately at the address or telephone
number listed on your statement. You will be liable
for unauthorized use of your credit card in cases
where you were grossly negligent or fraudulent in
the handling of your account or card when your card
was used with your PIN. You will not be liable for
an unauthorized transaction by the use of your card.
You will not, in any case, be liable for unauthorized
use that occurs after you notify us at the address or
telephone number listed on your statement; however,
you must identify, for us, the charges on the billing
statement that were not made by you, someone
authorized by you, and from which you received no
benefit. Use which includes use of your PIN or which
includes your negligence or fraud are considered by
us as “authorized use”.
CREDIT INFORMATION: You authorized us to investigate your credit standing when opening, renewing
or reviewing your account, and you authorize us to
disclose information regarding your account to credit

bureaus and others who inquire of us about your
credit standing. In this connection, the Credit Union
may request and use a report from outside credit
reporting agencies at any time. If you request it, we
will tell you whether or not we have asked for such
a report, and, if we have, the name and address of
the agency or agencies. We may report information
about your account to credit bureaus. Late payments,
missed payments, or other defaults on your account
may be reflected in your credit report.
DEFAULT AND COLLECTION COSTS: We have
the following rights in regard to default accounts:
(a) Default: You will be in default on this account if:
(1) you fail to make a required payment on time; (2)
you fail to perform any other obligation to us, or any
representation you make proves to be untrue; (3) you
become the subject of a proceeding in bankruptcy;
(4) any third party attempts, by legal process, to take
any money or other property of yours that is in our
possession; (5) if we reasonably believe you will
not be able to repay us for any reason, including
by way of illustration: any change in employment,
an increase in your obligations, or if the value of our
security declines materially; or (6) or you become
incapacitated or die. (b) Responses to Default:
Upon default, we may without notice cancel the account and require immediate payment of all or any
part of the balance due. If a demand for immediate
payment has been made, the shares and deposits
given us as security for this account can be applied
toward your outstanding balance. We may also
exercise any of our other rights. (c) Collection Fees
and Costs: If we send your account to a Collection
Service Agency, you agree to pay any and all reasonable collection fees and out-of-pocket costs incurred
in collecting on the account. Attorneys’ Fees and
Costs: If we refer your account to an attorney for
collection, you agree to pay any and all reasonable
attorneys’ fees and out of pocket costs incurred in
collecting on the account.
REFUSAL TO HONOR CARD: We are not responsible if we do not approve a purchase or cash
advance on your account, or if a third party refuses
to accept or honor the card, even if you have sufficient credit available. We may limit the number of
purchases or cash advances which may be approved
in one day. If we detect unusual or suspicious activity
on your account, we may temporarily suspend your
credit privileges until we can verify the activity. We
may approve purchases or cash advances which
cause the balance to exceed your credit limit without
waiving any of our rights under this Agreement. We
may temporarily suspend your credit privileges for
security reasons.
HOW WE MAY CONTACT YOU: You expressly
agree that to service your account or to collect
any amounts you may owe the Credit Union, we or
authorized parties may call you and send text messages to you. We may use pre-recorded/artificial
voice messages or an automatic dialing device to
contact you at any telephone number associated with
your account, including mobile telephone numbers,
all of which could result in charges to you. You also
expressly consent that we may send e-mail messages regarding your account to your e-mail address.
SENDING NOTICES: Any statement or notice to
you under this Agreement will be sufficiently given
if sent to your address, on file in connection with this
account, or to a new address of which you have notified us in writing at least 20 days before the sending
of the statement or notice. We may also send you
notices electronically to the email address we have
on file for you, if you have so authorized us in accordance with the E-Sign Act.
INTERNET GAMBLING OR ILLEGAL ACTIVITY
PROHIBITED: You may not use the card for Internet
gambling, any illegal transaction, or for a transaction
that would cause you to exceed your credit limit. You
agree to hold us harmless for any damages or other
liability arising from a transaction initiated by you or
your authorized user for the purpose of conducting an
illegal activity. We may decline to authorize transactions we believe may violate law or pose significant
risk to us or our members.
MAXIMUM RATE: The rate on your card will not
exceed the maximum rate allowed by applicable law.
AMENDMENT: The Provisions of this Agreement
are severable. If any provision of this Agreement is
held by a court of law to be invalid or unenforceable,
the rest of this Agreement will not be affected. We
may delay enforcing our rights under this Agreement
without losing them. We may change the terms of
this Agreement at any time in accordance with the
requirements of applicable law. If any such change
is not acceptable to you, you must promptly return
the card(s) to us.
NEW YORK RESIDENTS: New York residents may
contact the New York State Banking Department at
877.226.5697 to obtain a comparative listing of credit
card rates, fees and grace periods.

In your letter, give us the following information:
Account information: Your name and account
number. Dollar amount: The dollar amount of the
suspected error. Description of problem: If you think
there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
Within 60 days after the error appeared on your
statement. At least three business days before an
automated payment is scheduled, if you want to
stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing
or electronically. You may call us, but if you do, we
are not required to investigate any potential errors
and you may have to pay the amount in question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR
LETTER
When we receive your letter, we must do two things:
Within 30 days of receiving your letter, we must tell
you that we received your letter. We will also tell you
if we have already corrected the error. Within 90 days
of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been
an error:
We cannot try to collect the amount in question,
or report you as delinquent on that amount. The
charge in question may remain on your statement,
and we may continue to charge you interest on that
amount. While you do not have to pay the amount
in question, you are responsible for the remainder
of your balance. We can apply any unpaid amount
against your credit limit.
After we finish our investigation, one of two things
will happen:
If we made a mistake: You will not have to pay the
amount in question or any interest or other fees
related to that amount.
If we do not believe there was a mistake: You will
have to pay the amount in question, along with applicable interest and fees. We will send you a statement of the amount you owe and the date payment
is due. We may then report you as delinquent if you
do not pay the amount we think you owe. If you
receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us
that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that
you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us. If we
do not follow all of the rules above, you do not have
to pay the first $50 of the amount you question even
if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH
YOUR CREDIT CARD PURCHASES
If you are dissatisfied with the goods or services that
you have purchased with your credit card and you
have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the
remaining amount due on the purchase. To use this
right, all of the following must be true:
The purchase must have been made in your home
state or within 100 miles of your current mailing
address, and the purchase price must have been
more than $50.
(Note: Neither of these are necessary if your purchase was based on an advertisement we mailed
to you, or if we own the company that sold you the
goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from
an ATM or with a check that accesses your credit
card account do not qualify. You must not yet have
fully paid for the purchase.
If all the criteria above are met and you are still dissatisfied with the purchase, contact us in writing or
electronically at:
Empower Federal Credit Union
1 Member Way
Syracuse, NY 13212
www.empowerfcu.com
While we investigate, the same rules apply to the
disputed amount as discussed above.
After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount
and you do not pay, we may report you as delinquent.

YOUR BILLING RIGHTS – KEEP THIS NOTICE
FOR FUTURE USE:
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR
STATEMENT
If you think there is an error on your statement,
write to us at:
Empower Federal Credit Union
1 Member Way
Syracuse, NY 13212
You may also contact us on the web at:

315.477.2200
800.462.5000
www.empowerfcu.com
Your saving federally insured to at least $250,000
and backed by the full faith and credit of the United States Government

www.empowerfcu.com

Federally Insured by NCUA

9/15 150K

